March 26, 2008

GARY C. REBLIN
VICE PRESIDENT, EXPEDITED MAIL

JAMES P. COCHRANE
VICE PRESIDENT (ACTING), GROUND PACKAGES

KATHLEEN AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

JORDAN M. SMALL
VICE PRESIDENT, DELIVERY OPERATIONS

NICHOLAS F. BARRANCA
VICE PRESIDENT, PRODUCT DEVELOPMENT

RODNEY C. DEVAR
MANAGER, ADVERTISING

SUBJECT: Management Advisory Report – Review of Business Over the Counter
         (Report Number MS-MA-08-001)

This report presents the results of our review of Business Over the Counter (Project
Number 07RG005MS000). The report responds to a request from the Deputy
Postmaster General to evaluate how the Postal Service conducts business over the
counter. Our objective was to determine whether the Postal Service can divert non-
revenue generating services from the retail counter to alternate channels. Click here or
go to Appendix A for additional information about this audit.

Conclusion

The Postal Service could divert some non-revenue generating transactions currently
conducted at the retail counter to alternate channels by promoting the use of USPS.com
and the contact center,1 expanding automated services available in the retail lobby, and
exploring new channels that its domestic competitors and foreign postal entities
currently use.
1
  The contact center provides a centralized channel for customers requesting a variety of services, such as placing
their mail delivery on hold; scheduling redelivery of a mail item; obtaining information on local post office hours and
locations, domestic and international rates, ZIP Codes™, Certified Mail™, and Delivery and Signature
Confirmation™ services; purchasing stamps; changing a delivery address; tracking and tracing Express Mail®. The
contact center can respond in real time and serve as a customer comment channel to let local post offices know
about customer concerns and service issues. The contact center network includes electronic mail and a website to
provide some of the services offered through the 800-ASK-USPS toll free telephone number.
Business Over the Counter                                                                             MS-MA-08-001




Promote the Use of USPS.com and the Contact Center

The Postal Service website, USPS.com,2 enables customers to place mail on hold or
request redelivery of mail. These options are also available from the Postal Service
contact center. However, Postal Service (PS) Form 3849, “Sorry We Missed You,” and
PS Form 8076, “Authorization to Hold Mail,” do not inform customers they can hold mail
or request redelivery at USPS.com or through the contact center. Postal Service
advertising officials used direct mail3 to advertise the hold mail service on USPS.com
once in 2006 and once in 2007. In fiscal year (FY) 2007, they also used 20 Internet
banners to advertise hold mail service and one Internet banner to advertise redelivery
service. Please refer to Appendix B for our detailed analysis of this issue.

We recommend the Vice President, Product Development:

    1. Add language to Postal Service (PS) Form 3849, “Sorry We Missed You,” to
       make customers aware they can request redelivery through USPS.com and the
       contact center.

We recommend the Vice President, Retail Operations:

    2. Add language to PS Form 8076, “Authorization to Hold Mail,” to make customers
       aware they can place mail on hold through USPS.com and the contact center.

We recommend the Manager, Advertising:

    3. Use advertisements such as signs in post office lobbies, television ads, and
       Internet banners on USPS.com to inform customers that hold mail and redelivery
       services are available via USPS.com and the contact center.

Expand Automated Services Available in the Retail Lobby

The Postal Service should explore expanding automated services available in the retail
lobby, such as adding computers to allow online business and a telephone line with a
direct connection to the contact center, and enhancing the capabilities of lobby kiosks.
Leveraging the extensive retail network could also provide new opportunities for
revenue generation. For example, there could be opportunities to make the network of
these kiosks available to other departments of the federal government or private sector
companies. Please refer to Appendix B for our detailed analysis of this issue.
We suggest the Vice President, Retail Operations:

    4. Explore ways to expand the automated services available in the retail lobby.

2
  USPS.com is the Postal Service’s website. It allows customers to send mail, buy stamps, purchase items from the
Postal Store, calculate rates, print labels, create greeting cards and newsletters, locate post offices and find ZIP
Codes, track packages, place a Change of Address, request mail delivery holds, and schedule redelivery of
packages.
3
  Direct Mail is another name for advertising mail sent to targeted markets.

                                                          2
Business Over the Counter                                                     MS-MA-08-001



Explore Alternate Channels Currently Used by Domestic Competitors and Foreign
Postal Entities

In addition to raising customer awareness of services available through USPS.com and
the contact center and expanding automated services available in the retail lobby, the
Postal Service should explore alternate channels its domestic competitors and foreign
postal entities currently use. Parcel kiosks and additional delivery options present the
Postal Service with an opportunity to reduce costs, improve customer service, and
generate revenue. Please refer to Appendix B for our detailed analysis of this issue.

We suggest the Vice Presidents, Delivery Operations and Retail Operations:

   5. Explore installing parcel kiosks.

We suggest the Vice Presidents, Expedited Mail and Ground Packages:

   6. Explore adding fee-based premium delivery options to available services.

   7. Explore giving customers the option to intercept their packages for redelivery for
      a fee.

Management’s Comments

Management agreed with our findings, recommendations, and suggestions. They
stated they will implement corrective actions regarding promoting the use of USPS.com
and the contact center by June 2008. Management also said they will inform the OIG of
any decision to implement new automated services in the retail lobby by October 2008.
Further, they will explore alternate channels that the Postal Service’s domestic
competitors and foreign postal entities currently use. Specifically, management will
inform the OIG of any decisions to offer kiosk-based parcel lockers by October 2008,
and to implement premium delivery and intercept services by March 2009.
Management’s comments, in their entirety, are included in Appendix I.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
suggestions in the report and the corrective actions should resolve the issues identified
in the findings.

The OIG considers recommendations 1, 2, and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until OIG provides written confirmation the recommendations
can be closed.

We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Robert Mitchell,
Director, Sales and Service, or me at (703) 248-2100.
                                            3
Business Over the Counter                MS-MA-08-001




 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Patrick R. Donahoe
    Anita J. Bizzotto
    William P. Galligan
    Susan M. Plonkey
    Katherine S. Banks




                                     4
Business Over the Counter                                                                                MS-MA-08-001



                       APPENDIX A: ADDITIONAL INFORMATION
BACKGROUND

Each day millions of customers visit post offices to perform transactions such as
purchasing postal products and services, sending mail, picking up items that could not
be delivered to their homes, placing temporary holds on their mail, submitting changes
of address, or collecting mail from a post office (PO) box.

From FY 2005 through the second quarter of FY 2007, Retail Associates (RAs)4
completed about 5.35 billion transactions at the retail counter. (See Appendix C.)
These transactions included both revenue-generating types, such as selling stamps and
special services,5 and non-revenue generating types, such as placing temporary holds
on customers’ mail. (See Appendix H for a list of non-revenue transaction types.)

During the period, 5.66 percent (302.3 million/5.35 billion) of all transactions conducted
at the retail counter were non-revenue generating. These transactions accounted for
6.89 percent (369.7 million minutes/5.37 billion minutes) of RAs’ total calculated
transaction time6 (See Appendix C.), and cost the Postal Service an estimated $238.5
million.7 Over 50 percent of the non-revenue transactions were either mail pickup or
hold mail transactions. (See Appendix D, Table A.)

The Strategic Transformation Plan 2006 – 2010 states the Postal Service "will continue
to place special emphasis on enhancing online and self-service capabilities to further
reach out to customers where they live, work, and shop." The Postal Service’s goal is
to “double the percent of retail transactions via alternate access channels to 40 percent
by 2010."

In order to accomplish its goal, the Postal Service planned to divert 4 percent of
revenue from the retail counter to alternate access channels every year starting in 2006.
These alternate access channels include Stamps on Consignment,8 Automated Postal
Centers® (APCs),9 Contract Postal Units (CPUs),10 and USPS.com. Although these
4
  An RA is any employee authorized to execute transactions at the retail counter, such as Sales and Service
Associates (SSAs), Window Clerks, or Window Distribution Clerks.
5
  Special services are mail services for fees in addition to required postage, including Registered Mail™, Certified
Mail, insured mail, Collect on Delivery (COD), recorded delivery, special delivery, special handling, parcel airlift,
business reply mail, and return receipt for merchandise.
6
  The Retail Data Mart contains standard time factors for transactions conducted at the retail counter. The Postal
Service computes “calculated transaction time” by applying the standard time factor to the transactions completed.
7
  We determined the cost by converting 369.7 million non-revenue transaction minutes to hours, then multiplying by
the average fully loaded hourly rate of $38.71 for clerk craft for FYs 2005 – 2007. The Manager, Program
Performance, published the fully loaded hourly rates in a letter dated March 6, 2006. The letter states that the rate for
FY 2005 is the calculated rate and that rates for FYs 2006 and 2007 were projections based on existing contractual
agreements and reasonable labor assumptions.
8
  The Stamps on Consignment Program allows businesses to sell stamps to customers at post office prices. The
Postal Service has a contract with American Bank Note Company (ABN) for the Stamps on Consignment Program.
ABN distributes stamps to more than 1,000 consignees operating at more than 45,000 locations.
9
  APCs are kiosks that dispense postage and allow customers to weigh parcels, calculate and apply postage, and
ship items using Express Mail®, Priority Mail®, or First-Class Mail® services.
10
   CPUs are contractor-owned and operated facilities under contract to the Postal Service to provide selected postal
services such as accepting mail and selling postage, supplies, and Postal Service money orders to the public. CPUs
are usually located in a store or place of business.
                                                              5
Business Over the Counter                                                                           MS-MA-08-001



alternate channels primarily divert revenue-generating transactions, APCs and
USPS.com also have the potential to significantly reduce the number of non-revenue
generating transactions at the retail counter.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service can divert non-revenue
generating services from the retail counter to alternate channels.

To accomplish our objective, we:

o Reviewed the Strategic Transformation Plan, National Strategic Cook Book, and
  Retail Service Network & Access Management web site to understand current
  initiatives for diverting non- (or minimal) revenue generating transactions from the
  retail counter.

o Analyzed redelivery and hold mail requests from My Post Office11 for FYs 2005,
  2006, and 2007 (Quarters 1 and 2).

o Interviewed Headquarters Delivery and Retail officials regarding diverting non- (or
  minimal) revenue transactions from the retail counter.

o Analyzed transactions for FYs 2005, 2006, and 2007 (Quarters 1 and 2) from the
  Retail Data Mart (RDM) to determine the percentage of all window transactions that
  were non-revenue generating.

o Reviewed relevant websites to determine alternate access channels the Postal
  Service’s domestic competitors and foreign postal entities use.

o Interviewed Headquarters Delivery and Retail officials regarding the possibility of
  adding functions to the APC.

o Reviewed the Business Environment Assessment Plan to understand social trends
  and competitive initiatives that affect the Postal Service.

We conducted this review from April 2007 through March 2008 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
relied on data obtained from Postal Service officials, My Post Office, and the RDM. We
did not directly audit My Post Office or the RDM, but performed a limited data integrity
review to support our data reliance. We discussed our observations and conclusions
with management officials in November 2007 and included their comments where
appropriate.

PRIOR AUDIT COVERAGE



11
 My Post Office uses the Postal Service intranet to link field units to the 800-ASK-USPS contact centers and
USPS.com — enabling customers to find local post office hours, put mail on hold, and use other services.
                                                           6
Business Over the Counter                                                  MS-MA-08-001



The U.S. Postal Service Office of Inspector General (OIG) has not issued any reports
related to our objective.




                                           7
Business Over the Counter                                                                                    MS-MA-08-001




                              APPENDIX B: DETAILED ANALYSIS

Promote the Use of USPS.com and the Contact Center

Over 80 percent of non-revenue transactions RAs processed at the retail counter from
FY 2005 through the second quarter of FY 2007 were mail pickup, hold mail, or “no
sale” transactions. However, USPS.com and the contact center’s combined volume of
14.53 million hold mail and redelivery request transactions was only 5.36 percent of the
270.98 million hold mail and redelivery transactions RAs processed in FYs 2005, 2006,
and 2007. (See Appendix E.)

The Postal Service website, USPS.com, enables customers to place their mail on hold
or request redelivery of mail. These options are also available through the Postal
Service contact center. However, PS Form 3849, “Sorry We Missed You,” and PS
Form 8076, “Authorization to Hold Mail,” do not inform customers they can hold mail or
request redelivery at USPS.com or through the contact center. Postal Service
advertising officials used direct mail to advertise hold mail services on USPS.com once
in 2006 and once in 2007. In FY 2007, they also used 20 Internet banners to advertise
hold mail service and one Internet banner to advertise redelivery service.

According to the Postal Service Consumer Policy and Strategy and Marketing officials,
PS Form 3849 had specific design requirements because of the Mobile Data Collection
Device12 (MDCD) scanners. However, since Intelligent Mail Device scanners have
replaced the MDCDs13 there is an opportunity to redesign the form. Headquarters
Information Policies and Procedures officials stated management can modify PS Form
8076 at any time.

Expand Automated Services Available in the Retail Lobby

The Postal Service, with its expansive retail network, has opportunities to enhance the
retail lobby by deploying proven technologies and capitalizing on the contact center that
is already in place. Additional opportunities for exploration exist in the following areas:

     •   Adding computers to allow online business from the retail lobby.
     •   Including a telephone line with a direct connection to the contact center.
     •   Enhancing capabilities of lobby kiosks.

Computers: Having a computer available in the retail lobby that is set to USPS.com by
default could serve multiple benefits. First, it could divert non-revenue and revenue
generating transactions from the retail counter. Second, it could reduce the wait time in
line for customers. Third, and perhaps the most important, it could introduce customers
to the various capabilities of the Postal Service website, which could result in increased


12
   MDCDs are hand-held scanners used by carriers and RAs to scan all accountable mail. The device has been
modified to accept daily reporting of financial data for post office or postal retail units. The device is also referred to
as the Delivery Confirmation™ (DELCON) scanner.
13
   The Postal Service deployed Intelligent Mail Device scanners between September 2006 and September 2007.
                                                              8
Business Over the Counter                                                         MS-MA-08-001



future use of the website for both revenue generating and non-revenue generating
transactions.

Telephone Connection to the Contact Center: Installing a telephone line in the retail
lobby with a direct connection to the contact center would provide an alternative for
customers to conduct non-revenue generating transactions with the Postal Service.
This telephone could both allow the contact center to handle those non-revenue
generating transactions and reduce customers’ wait time in line. Additionally, once
customers see how easy it is to handle these transactions via the contact center, they
might be more likely to use the center in the future.

Kiosks: Self-service kiosks offer many of the same products and services available
through customer assisted transactions. Consumers are becoming more comfortable
with self-service kiosks. Forty-four percent of major retailers have at least one kiosk in
targeted stores. Kiosks offer interesting new technology, fast service, and convenience.
They can give customers new reasons to come into the store and help them complete
their tasks without adding workload to store personnel. Kiosks also offer the ability to
shift resources and extend hours.

In the private sector, some kiosks not only allow customers to conduct self-service
transactions, but provide a link, via voice communication, to customer service
representatives to assist customers with more complex transactions. Additionally, a
printer could be made available, if needed, to provide additional capabilities. This would
allow customers much more flexibility in the hours they could receive customer service
in the retail lobby, and it could provide the Postal Service additional staffing flexibilities.

Further developing the automation capabilities in the retail lobby and leveraging the
extensive retail network could also provide new opportunities for revenue generation.
For example, there could be opportunities to make the network of these kiosks available
to other departments of the federal government or private sector companies, allowing
them to use the vast Postal Service network to, in essence, expand their own. We
believe that creative planning in this area could provide many additional opportunities
and alternatives for further exploration.

Postal Service Actions: In 2004 the Postal Service introduced the APC. This mailing
kiosk gives customers a convenient alternative to counter services when post offices
are at their busiest. For customers who prefer to mail after hours, APCs make shipping
packages, mailing letters, and buying stamps available at any time of the day or night,
including weekends and holidays. A new feature scheduled to be released in August
2008 will allow customers to make PO box payments on the APC. The Postal Service
currently operates about 2,500 APCs, with the possibility of additional future
deployments.

APCs provide some non-revenue services (such as ZIP Code lookup), but Retail
Service Network and Access Management officials stated that their purpose is to




                                               9
Business Over the Counter                                                               MS-MA-08-001



generate revenue.14 In 2005, they considered adding change of address (COA) and
hold mail features to the APC. However, the cost of additional software would have
been approximately $2.2 million, and senior management decided not to implement the
features.

The Postal Service has explored integrating the self-service APC with the full-service
retail counter and is using a Postal Service facility to test a variety of unassisted
checkout technologies. The Postal Service has also developed strategic partnerships
for kiosks that are capable of printing on-demand postage and providing financial
services.

In October 2007, the Postal Service redesigned the Woodfield Station in Schaumburg,
Illinois into a retail space that gives customers a one-stop shopping experience with a
variety of products and services not previously available at post offices. This facility has
been renamed the Retail Learning Lab (RLL) internally because it will test new product
lines, various methods of serving customers, and partnerships with private companies
such as Office Max Impress. The retail space includes Point of Service One units, a
self-service U.S. and International Shipping area, an expanded product merchandise
area, printing and copying services, APC kiosks, conference room rental for meetings,
free WiFi (wireless Internet service), and a financial service center kiosk.

Explore Alternate Channels Currently Used by Domestic Competitors and Foreign
Postal Entities

In addition to raising customer awareness of services available through USPS.com and
the contact center and expanding automated services available in the retail lobby, the
Postal Service should look to its domestic competitors and foreign postal entities for
more options in this area. Parcel kiosks and additional delivery options present the
Postal Service with an opportunity to reduce costs, improve customer service, and
generate revenue.

In FYs 2005 and 2006, the Postal Service delivered 89 percent of scanned mail on the
first attempt. (See Appendix G, Table A.) However, in those years carriers could not
deliver approximately 70.9 million and 75.6 million pieces of scanned mail on the first
attempt, respectively. (See Appendix G, Table B.) Since the Postal Service does not
deliver 11 percent of scanned mail on the first attempt, there is an opportunity to
develop an alternative delivery mechanism to reduce costs, improve customer service,
and generate revenue.

“Parcel kiosks” could appeal to customers who receive a high volume of mail (such as
those doing business on eBay), but are generally not at home to accept deliveries. The
Postal Service could place these kiosks in high-traffic locations along the carriers’
routes, at traditional post offices, and at new self-service post offices. When carriers
cannot deliver parcels, they would use a form (such as PS 3849) to instruct recipients to
retrieve their parcels from assigned lockboxes at designated kiosks. Combination locks

14
  In FY 2007, the APC program achieved 98 percent of its Strategic Transformation Plan revenue goal
($483 million/$493 million).
                                                 10
Business Over the Counter                                                     MS-MA-08-001



or electronic “smart card” locks would secure kiosk lockboxes. Carriers would leave
pickup instructions, along with the combination or smart card to the parcel recipient’s
lockbox, only if it is practical and safe to do so (such as in apartment buildings or
housing developments with locking mailboxes).

Carriers would deposit parcels in the lockboxes assigned to respective recipients.
Depending on kiosk locations, carriers would do this either during or at the conclusion of
their routes. Recipients would have a specified number of days within which to retrieve
parcels at their convenience. If, after that time, recipients have not retrieved parcels,
the Postal Service would return them to the senders. Recipients could use
combinations or smart cards for only one pickup; once the recipient has retrieved a
parcel, the lock would automatically reset for its next use.

Parcel kiosks have the potential to both reduce delivery costs (because there would be
fewer redeliveries) and cut down the time RAs spend on non-revenue activities
(because there would be fewer customers coming to the retail counter to pick up
parcels). They would also greatly enhance customer service, because recipients could
retrieve parcels at their convenience rather than waiting in lines.

Parcel kiosks also have the potential to open a new revenue stream. The Postal
Service could engage in strategic alliances with delivery companies (such as FedEx and
United Parcel Service [UPS]) that allow these firms to lease any excess capacity at a
Postal Service kiosk. When these companies cannot deliver a parcel, they could rent a
lockbox from a Postal Service kiosk and leave the parcel there, rather than taking it
back to their own facility and attempting delivery another day. The delivery company
would pay the Postal Service a fee for every day it uses the space. The delivery firm
and its customers would reap the same benefits described above and the Postal
Service would earn additional revenue.

A similar working model of the parcel kiosk already exists. In Germany, DHL (a
subsidiary of Deutsche Post specializing in parcel delivery) provides a service whereby
customers can sign up for a kiosk lockbox at no charge. DHL places these kiosks in
convenient locations that customers can access 24 hours a day. Customers must
instruct senders to address parcels to the lockbox address if they wish to pick up
parcels there. Recipients use the smart cards they receive when they sign up for the
lockbox to retrieve their parcels.




                                            11
Business Over the Counter                                                               MS-MA-08-001




                                       DHL’s “PACKSTATION”




                            Photo obtained from www.de.wikipedia.org/wiki/Packstation


Additional Delivery Options

Both FedEx and UPS offer delivery options that could reduce transactions at retail
counters, improve customer service, and generate revenue if the Postal Service
implemented them.

FedEx Home Delivery Service allows customers to choose among three premium
service upgrades, available Tuesdays through Saturdays — FedEx Date Certain Home
Delivery®, FedEx Evening Home Delivery®, and FedEx Appointment Home Delivery®.
(See Appendix F.) FedEx Date Certain Home Delivery allows customers to specify a
delivery date, with delivery between 9 a.m. and 8 p.m. FedEx Evening Home Delivery
allows customers to specify a delivery time between 5 p.m. and 8 p.m. on the scheduled
day of delivery. FedEx Appointment Home Delivery provides for delivery on a specific
date and by a scheduled time.

Premium delivery options would allow the Postal Service to address the growing trend
of customers ordering merchandise over the Internet and to stay competitive with
private companies.




                                                       12
Business Over the Counter                                                   MS-MA-08-001



In 2007, UPS started a new service called UPS Delivery Intercept. This service allows
the sender to intercept a package for a fee. Senders can have packages returned to
them, delivered to another address, rescheduled for delivery, or placed at will call.15
This service allows the sender to maintain control of packages as they move through
the UPS network. Each intercept incurs a fee of $10.00 per package. The Postal
Service currently tracks Express Mail, Delivery Confirmation, Signature Confirmation,
Certified Mail, Registered Mail, and items with an online system called Track & Confirm.
The Express Mail items receive an “arrival at unit” scan, which could allow the Postal
Service to offer delivery intercept on this product.




15
     Package held for pickup by the consignee.




                                                 13
       Business Over the Counter                                                                        MS-MA-08-001




         APPENDIX C: NON-REVENUE TRANSACTIONS AS A PERCENTAGE
            OF TOTAL TRANSACTIONS BY NUMBER AND TIME, FY 2005
                     THROUGH 2007 (SECOND QUARTER)


                                                      Non-              Non-            Total         Non-
                  Non-                             Revenue            Revenue        Calculated      Revenue
                Revenue              Total       Transactions        Transaction     Transaction     Minutes
   Area       Transactions       Transactions       Percent            Minutes         Minutes       Percent   Visit Count
Cap              20,275,232        461,932,398       4.39%             24,924,445     463,038,232     5.38%     227,531,417
Metro
Eastern          26,411,455        624,899,603      4.23%              32,029,754     606,495,454     5.28%     320,322,604
Great            27,310,594        594,906,005      4.59%              33,271,305     593,302,565     5.61%     292,333,926
Lakes
NY Metro         31,470,324        553,589,106      5.68%              38,723,239      549,366,662    7.05%      260,569,969
Northeast        25,884,115        478,475,645      5.41%              31,183,575      478,628,681    6.52%      239,439,025
Pacific          31,703,378        600,855,009      5.28%              39,562,010      631,648,927    6.26%      271,944,336
Southeast        31,615,400        703,506,629      4.49%              39,065,435      697,537,238    5.60%      339,261,714
Southwest        41,217,420        516,636,185      7.98%              50,382,348      516,755,704    9.75%      251,152,997
Western          66,461,295        811,340,290      8.19%              80,539,811      829,477,664    9.71%      394,205,354
Total           302,349,213      5,346,140,870      5.66%            369,681,921*   5,366,251,128*    6.89%    2,596,761,342
        Source: Retail Data Mart
        *Difference is result of rounding.




                                                                14
Business Over the Counter                                                                         MS-MA-08-001




               APPENDIX D: NON-REVENUE TRANSACTIONS AND
                        MY POST OFFICE REQUESTS

                                   TABLE A
           NON-REVENUE TRANSACTIONS PROCESSED AT THE RETAIL COUNTER




                                                  Redacted




     Source: Retail Data Mart.


                                     TABLE B
                  REDELIVERY REQUESTS PROCESSED IN MY POST OFFICE

                    Contact Center                    Web                  IVR16               Totals
      FY 2005                  748,635                 103,236                      0             851,871
      FY 2006                  674,527                  98,958                 44,552             818,037
      FY 2007                  284,833                  71,617                 81,225             437,675
      Total                  1,707,995                 273,811                125,777           2,107,583
      Source: My Post Office


                                      TABLE C
                   HOLD MAIL REQUESTS PROCESSED IN MY POST OFFICE

                     Contact Center                  Web                    IVR                 Totals
      FY 2005                 940,119                2,799,958                 83,320            3,823,397
      FY 2006                 564,309                4,677,131                344,029            5,585,469
      FY 2007                 203,858                2,674,378                136,385            3,014,621
      Total                 1,708,286               10,151,467                563,734           12,423,487
     Source: My Post Office

16
   Interactive voice response (IVR) is a phone technology that allows a computer to detect voice and touch tones
using a normal phone call. The IVR system can respond with pre-recorded or dynamically generated audio to further
direct callers on how to proceed. IVR redelivery requests started in FY 2006 quarter 3.




                                                       15
Business Over the Counter                                              MS-MA-08-001



    APPENDIX E: NON-REVENUE TRANSACTIONS PROCESSED BY
     USPS.COM AND THE CALL CENTER AS A PERCENTAGE OF
       TRANSCATIONS PROCESSED BY RETAIL ASSOCIATES

                            Redelivery    Mail Pickup    Hold Mail      Total
 USPS.com/IVR
 (Appendix D Tables B, C)     2,107,583                  12,423,487    14,531,070
 RAs
 (Appendix D Table A)                      251,000,875   19,981,023   270,981,898
 (USPS.com/IVR) / RAs                                                      5.36%
  Source: My Post Office




                                          16
Business Over the Counter                                          MS-MA-08-001




  APPENDIX F: FEDEX HOME DELIVERY PREMIUM UPGRADE FEES
 FedEx Certain Home Delivery        $3 per shipment
 With Indirect Signature Required   $3 per shipment plus $1.50 per package
 With Direct Signature Required     $3 per shipment plus $2.50 per package
 With Adult Signature Required      $3 per shipment plus $3.50 per package
 FedEx Evening Home Delivery        $7 per shipment
 With Indirect Signature Required   $7 per shipment plus $1.50 per package
 With Direct Signature Required     $7 per shipment plus $2.50 per package
 With Adult Signature Required      $7 per shipment plus $3.50 per package
 FedEx Appointment Home Delivery    $15 per shipment
 With Direct Signature Required     Included
 With Adult Signature Required      $15 per shipment plus $3.50 per package
   Source: www.fedex.com/us




                                    17
Business Over the Counter                              MS-MA-08-001




            APPENDIX G: MAIL DELIVERY ON THE 1st ATTEMPT




                              Redacted




                                 18
Business Over the Counter                                           MS-MA-08-001



     APPENDIX H: TYPES OF NON-REVENUE GENERATING
 TRANSACTIONS PROVIDED BY SALES AND SERVICE ASSOCIATES
               OVER THE RETAIL COUNTER
                                       Description of Transaction
   1     Accept Hold Mail Request Form
   2     Audit Line Item Entry – Denomination Prodcode
   3     Change of Address Info Exempt From Fee
   4     COD
   5     COD Pickup
   6     Domestic Express Mail Inquiry
   7     Domestic Mail Loss/Rifling
   8     Duplicate Domestic Return Receipt
   9     Duplicate International Return Receipt
  10     Duplicate Return Receipt
  11     Employment Application Inquiry
  12     Examine Postage Meter
  13     Express Mail Pickup
  14     Foreign Wrapper w/out Contents
  15     Forwarding Address Request
  16     Give Local Directions
  17     Hold Mail
  18     Insured Claim
  19     Interim Receipt
  20     International Express Mail Claim
  21     International Express Mail Inquiry
  22     International Insured Claim
  23     International Insured Inquiry
  24     International Mail Loss/Rifling
  25     International Registered Claim
  26     International Registered Inquiry
  27     Miscellaneous Forms
  28     No Sale
  29     Non-Automated Mail Pickup
  30     No-Automated Transactions
  31     Non-revenue Pickup
  32     Other
  33     Other Mail Pickup
  34     PO Box Holder Info
  35     Permit Holder Name and Address
  36     PO Overflow
  37     Postage Meter
  38     Product/Service Rate Inquiries
  39     Provide Philatelic Info or Catalog
  40     Recall of Domestic Mail
  41     Registered with Postal Insurance
  42     Request/Submit Selective Service Form




                                             19
Business Over the Counter                                  MS-MA-08-001



  43    Request Passport Form
  44    Request Tax Form
  45    Respond to Computerized Forwarding System Issues
  46    Retail Fees and Products
  47    Space Available Mail
  48    Summon Supervisor at Customer’s Request
  49    Supply PO Box Holder Name/Address
  50    Supply Permit Holder Name/Address
  51    Unnumbered Parcels
  52    Unnumbered Insured Claim
  53    Unused Postage Meter
  54    Voter Registration Inquiry
  55    Waive Return Receipt for Merchandise Signature
 Source: Retail Data Mart




                                         20
Business Over the Counter                             MS-MA-08-001



                  APPENDIX I: MANAGEMENT’S COMMENTS




                                 21
Business Over the Counter        MS-MA-08-001




                            22
Business Over the Counter        MS-MA-08-001




                            23
Business Over the Counter        MS-MA-08-001




                            24
Business Over the Counter        MS-MA-08-001




                            25
